No. ___
In The

Supreme Court of the United States
JUDGE H. STEPHENS WINTERS, JUDGE CARL V. SHARP, JUDGE
BENJAMIN JONES, JUDGE J. WILSON RAMBO AND JUDGE FREDERIC
C. AMMAN
Applicants/Petitioners,
v.
STANLEY R. PALOWSKY, III, INDIVIDUALLY AND ON BEHALF OF
ALTERNATIVE ENVIRONMENTAL SOLUTIONS, INC.
Respondents.

APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF LOUISIANA

RICHARD A. SIMPSON
WILEY REIN LLP
1776 K Street NW
Washington, DC 20006
rsimpson@wileyrein.com
202.719.7314
Counsel of Record for Petitioners

TO THE HONORABLE SAMUEL ALITO, JR., ASSOCIATE JUSTICE OF THE
SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR
THE FIFTH CIRCUIT:
Pursuant to 28 U.S.C. § 2101(c) and this Court’s Rules 13.5, 21, 22, and
30.2, Judge H. Stephens Winters, Judge Carl V. Sharp, Judge Benjamin Jones,
Judge J. Wilson Rambo, and Judge Frederic C. Amman of the Fourth Judicial
District of Louisiana (the “judges”) respectfully request a 60-day extension of
time, to and including February 3, 2020, within which to file a petition for a writ of
certiorari to the Louisiana Supreme Court.
The Louisiana Supreme Court entered its judgment on June 26, 2019.
Palowsky v. Campbell, Nos. 2018-C-1105, 2018-C-1115, 2019 WL 2896746 (La.
June 26, 2019). The Louisiana Supreme Court denied the judges’ timely
application for rehearing on September 6, 2019. Palowsky v. Campbell, 278 So. 3d
358 (La. 2019). Copies of the opinions are attached hereto. Unless extended, the
time within which to file a petition for a writ of certiorari will expire on December
5, 2019. This Court’s jurisdiction would be invoked under 28 U.S.C. § 1257(a).
Plaintiff Palowsky, individually and on behalf of Alternative Environmental
Solutions, Inc. (“AESI”), sued a law clerk and the judges in the Fourth Judicial
District. Palowsky, 2019 WL 2896746, at *1. Palowsky alleged that the law clerk
concealed, destroyed, and mishandled court documents relating to Palowsky v.
Cork, a prior action brought by Palowsky in the same court. Id. Palowsky also
1

alleged that the judges aided and concealed the actions of the law clerk. Id. The
judges and the law clerk filed motions to strike certain allegations from Palowsky’s
petition and filed exceptions of no cause of action. Id. The district court granted
the motions and the exceptions of no cause of action. Id. The court of appeal
reversed the motions to strike in part and the granting of the exception of no cause
of action as to the law clerk, but affirmed the granting of the exception of no cause
of action as to the judges. Id. The court of appeal held that the judges were
entitled to absolute judicial immunity. Id.
The Louisiana Supreme Court reversed the court of appeal judgment insofar
as it dismissed Palowsky’s claims against the judges. Id. In a per curiam opinion,
the Louisiana Supreme Court, accepting the facts as alleged in Palowsky’s petition
as true for purposes of the exception of no cause of action, held that the judges
were not entitled to absolute judicial immunity. Id. The Louisiana Supreme Court
reasoned that Palowsky’s allegations regarding the judges’ supervision and
investigation of the law clerk’s activities arose within the context of the judges’
administrative capacity, and not within their judicial or adjudicative capacities. Id.
In doing so, the Louisiana Supreme Court relied upon and interpreted this Court’s
decision in Forrester v. White, where this Court held that a functional approach
should be used to determine questions of judicial immunity. 482 U.S. 219, 229

2

(1988) (“[I]mmunity is justified and defined by the functions it protects and
serves”).
Of the five Louisiana Supreme Court justices who wrote separate opinions,
three dissented on the issue of judicial immunity, holding that the judges’ alleged
actions were taken in their judicial capacities. Palowsky, 2019 WL 2896746, at *2.
Chief Justice Bernette Johnson stated that the allegations against the judges are
“properly classified as acts done in their judicial capacities.” Id. at *2. Justice
Greg Guidry and Justice Scott Crichton held that the judges’ actions were made in
their judicial capacities because those actions related to the Palowsky v. Cork case
that was pending before the district court. Id. at *5. In addition, Justice Crichton
underscored the conflict between the Louisiana Supreme Court opinion and
judicial immunity principles, including those established by this Court. Id. at *9.
In denying rehearing, the Louisiana Supreme Court was similarly divided, 4-3.
Palowsky, 278 So. 3d at 358.
The petitioners are evaluating whether to seek this Court’s review of the
Louisiana Supreme Court’s decision. Additional time is necessary to permit
counsel to complete analysis of the issues that could be raised in a petition and, if
appropriate, to prepare and file a petition that adequately addresses those issues.
An extension of 60 days is warranted because counsel of record was not involved
in the prior proceedings in this case and therefore requires additional time to study
3

the record and relevant case law. In addition, since being retained in this matter,
counsel of record has had and will continue to have numerous preexisting
professional responsibilities, including participation as lead counsel in a
confidential arbitration held on November 11-15, 2019, including preparation of
multiple pre-arbitration filings; preparation of post-arbitration briefs and other
submissions due on January 10, 2020; preparation of a petition for a writ of
certiorari from the decision of the Supreme Court of Colorado in Brooks v.
Colorado, No. 17SC614 (Colo.), due on December 20, 2019; oral argument on a
motion to dismiss on November 20, 2019 in Evanston Insurance Co v. William
Kramer & Associates, LLC, No. 8:16-cv-02324 (M.D. Fla.); oral argument in the
United States Court of Appeals for the Second Circuit on December 10, 2019 in
Continental Casualty Co. v. Parnoff, No. 18-3031 (2d Cir.); preparation of a reply
brief on a summary judgment motion due on December 6, 2019 in Day Kimball
Healthcare, Inc. v. Allied World Surplus Lines Insurance Co., No. 3:19-cv-01521
(D. Conn.); preparation of a supplemental post-argument submission due on
December 6, 2019 as requested by the court in Evanston Insurance Co v. William
Kramer & Associates, LLC, No. 8:16-cv-02324 (M.D. Fla.); and advising clients
regarding multiple matters not currently in litigation. The judges are not aware of
any party that would be prejudiced by granting a 60-day extension.

4

CONCLUSION
Accordingly, Judge H. Stephens Winters, Judge Carl V. Sharp, Judge
Benjamin Jones, Judge J. Wilson Rambo, and Judge Frederic C. Amman
respectfully request that the time to file a petition for a writ of certiorari be
extended by 60 days, to and including February 3, 2020.

RICHARD A. SIMPSON

WILEY REIN LLP
1776 K Street NW
Washington, DC 20006
rsimpson@wileyrein.com
202.719.7314

Counsel of Record for Petitioners

Dated: November 22,2019

5

APPENDIX A










$33(1',;%

